           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       COLLECTION OF OLD-AGE,
      SURVIVORS AND DISABILITY
    INSURANCE OVERPAYMENTS TO
     REPRESENTATIVE PAYEES FOR
       DECEASED BENEFICIARIES

    July 2004    A-13-03-13049




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY

MEMORANDUM

Date:   July 21, 2004                                                                     Refer

To:     The Commissioner

From:   Acting Inspector General

Subject: Collection of Old-Age, Survivors and Disability Insurance Overpayments to
        Representative Payees for Deceased Beneficiaries (A-13-03-13049)


        The attached final report presents the results of our audit. Our objective was to assess
        the effectiveness of the Social Security Administration’s Old-Age, Survivors and
        Disability Insurance overpayment collection efforts for payments issued to
        representative payees after the beneficiary’s death. We also reviewed overpayments
        made to these same representative payees before the beneficiary’s death.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                              S
                                                           Patrick P. O’Carroll, Jr.

        Attachment
                                                    Executive Summary
OBJECTIVE
Our objective was to assess the effectiveness of the Social Security Administration’s
(SSA) Old-Age, Survivors and Disability Insurance (OASDI) overpayment collection
efforts for payments issued to representative payees after the beneficiary’s death. We
also reviewed overpayments made to these same representative payees before the
beneficiary’s death.

BACKGROUND
Under the Old-Age and Survivors Insurance program, monthly benefits are paid to
retired workers and their families and to survivors of deceased workers. Under the
Disability Insurance program, monthly benefits are paid to medically disabled workers
and to the families of the disabled workers. For individuals who are unable to manage
or direct the management of their finances because of their youth or mental and/or
physical impairments, Congress granted SSA the authority to appoint representative
payees to receive and manage these beneficiaries’ payments. Payments in an amount
greater than the amount to which an individual is entitled are considered overpayments.
When overpayments occur, Agency policies indicate various actions should be taken to
collect the amount overpaid. It is SSA’s responsibility to identify the overpayment and
pursue recovery of the debt. From January 1996 through December 2002, OASDI
overpayments made to representative payees for deceased beneficiaries totaled about
$77 million.

RESULTS OF REVIEW
SSA has used debt collection tools to recover millions in OASDI overpayments from
beneficiaries. However, we found SSA did not refer delinquent OASDI representative
payee overpayment debts to the Department of the Treasury’s (Treasury) Financial
Management Service (FMS). Additionally, SSA was not reporting this type of delinquent
debt to credit bureaus. Moreover, the Agency has established overpayment control
records for individual representative payees where payment of more than the correct
amount is made after the beneficiary’s death, as required by law. However, the Agency
has not established overpayment control records for organizational representative
payees. Further, the Agency has not linked these control records to its debt collection
system.

CONCLUSION AND RECOMMENDATIONS
SSA can improve its debt collection efforts for OASDI overpayments made to
representative payees for deceased beneficiaries. Collection of delinquent
representative payee debt could be improved if the Agency refers this debt to
Treasury’s FMS and uses credit bureau reporting. Also, the use of overpayment control



Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)   i
records should make possible the recording and reporting of OASDI debt of
representative payees to Treasury and enable the use of credit bureau reporting. If
SSA does not improve its debt collection efforts for representative payees, delinquent
OASDI debts will continue to rise.

We recommend that SSA:

    •   Identify and refer all eligible delinquent representative payees’ OASDI
        overpayment debts to Treasury’s FMS for tax refund and administrative offset.

    •   Determine whether the representative payee OASDI delinquent overpayment
        debt information is appropriate for credit bureau reporting. If determined to be
        cost-beneficial, implement the process.

    •   Improve the Representative Payee System to link the overpayment control
        records of all representative payees to its External Collection Operation to assist
        in debt collection.

    •   Determine whether individual representative payees with delinquent OASDI
        overpayment debts should continue to be representative payees.

    •   Determine whether organizational representative payees with delinquent OASDI
        overpayment debts should continue or become future representative payees.

    •   Determine whether it is cost-beneficial to link the overpayment control record of
        the representative payee to their future master beneficiary or supplemental
        security record. If determined to be cost-beneficial, implement the process.

AGENCY COMMENTS
SSA agreed with five of our six recommendations, but agreed in part with our third
recommendation. SSA stated that there is currently a link between the Representative
Payee System and the Master Beneficiary Record, which identifies to the
Representative Payee System any representative payee record where an overpayment
has been established. However, SSA is taking action on all our recommendations. The
text of SSA’s comments is included in Appendix E.

OIG RESPONSE

Although SSA agreed in part with Recommendation 3, the Agency stated, it “…will
address the feasibility of creating an interface between the Representative Payee
System and the Non-Entitled Debtors during the design stage.” SSA’s actions are
responsive to the intent of our recommendation. The Agency also provided “technical”
comments. We agree, in part, with these comments and have made the appropriate
changes as applicable.




Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)   ii
                                                              Table of Contents
                                                                                                              Page
INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

      SSA EFFORTS ARE RESULTING IN THE COLLECTION OF OASDI
      OVERPAYMENTS ..........................................................................................3

      SSA CAN IMPROVE ITS COLLECTION OF OVERPAYMENTS MADE
      TO REPRESENTATIVE PAYEES FOR DECEASED BENEFICIARIES ........4

         Delinquent Representative Payee OASDI Debts Were
         Not Referred to Treasury for Collection .......................................................4

         Credit Bureau Reporting Was Not Used for Delinquent
         Representative Payee OASDI Debt.............................................................5

      SOME OVERPAYMENT CONTROL RECORDS EXIST, BUT
      NOT LINKED TO SSA’S DEBT COLLECTION SYSTEM ..............................6

CONCLUSIONS AND RECOMMENDATIONS.......................................................9

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Background, Scope and Methodology

APPENDIX C – Prior Office of the Inspector General Review

APPENDIX D – Sampling Methodology

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments




Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)
                                                                           Introduction
OBJECTIVE
Our objective was to assess the effectiveness of the Social Security Administration’s
(SSA) Old-Age, Survivors and Disability Insurance (OASDI) overpayment collection
efforts for payments issued to representative payees after the beneficiary’s death. We
also reviewed overpayments made to these same representative payees before the
beneficiary’s death.1

BACKGROUND
Under the Old-Age and Survivors Insurance program, monthly benefits are paid to
retired workers and their families and to survivors of deceased workers. Under the
Disability Insurance program, monthly benefits are paid to medically disabled workers
and to the families of the disabled workers. For individuals who are unable to manage
or direct the management of their finances because of their youth or mental and/or
physical impairments, Congress granted SSA the authority to appoint representative
payees to receive and manage these beneficiaries’ payments. Payments in an amount
greater than the amount to which an individual is entitled are considered overpayments.
When overpayments occur, Agency policies require appropriate actions be taken to
collect the amount overpaid. It is SSA’s responsibility to identify the overpayment and
pursue recovery of the debt. From January 1996 through December 2002, OASDI
overpayments made to representative payees for deceased beneficiaries totaled about
$77 million.

Depending on when the overpayment occurs, the beneficiary or the representative
payee is responsible for repayment. Beneficiaries are liable if they were unjustly
enriched at the trust fund’s expense. However, beneficiaries are not liable if their
representative payees use incorrect payments for purposes other than the beneficiaries’
needs.2 The representative payee is solely liable for repayment if either the incorrect
benefits were not used to support and maintain the beneficiary or the representative
payee caused the overpayment. Further, if payments are issued to a representative
payee after the beneficiary’s death, the representative payee is overpaid and is solely
liable. Therefore, the Agency will attempt recovery from the representative payee.

When overpayments occur, SSA must notify the debtors of the reasons for, and the
amounts of, the overpayments and their liability for repayment.3 A notice is issued
when an overpayment is detected. The notice explains the right to reconsideration of
the overpayment, the right to request a waiver of recovery, and provides the debtor an
opportunity to present evidence that the debt is either not past due or not legally
enforceable. The notice identifies various methods for repaying the overpayment. If the

1
  For this report, the term “beneficiary” denotes individuals who receive benefits from the OASDI program.
2
  Program Operations Manual System (POMS), GN 02205.007.
3
  POMS, GN 02201.009.

Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)     1
Agency does not receive refunds of the overpaid amounts within 30 days, the notice
states an automatic reduction will occur in amounts paid to beneficiaries in current pay
status.

For individuals not currently receiving benefit payments, the Agency uses the Recovery
and Collection of Overpayments Process 4 to collect the overpayments. Such
individuals are billed for overpayments and may choose to repay the debt as either a
single payment or monthly installments.

If debtors become delinquent5 in making either a single payment or an installment
payment, additional actions may be taken to collect the debt. For example, the Agency
will report debts that are “unrecoverable”6 to credit bureaus. Further, SSA’s External
Collection Operation automated system transmits information on debt more than
180 days delinquent to the Department of the Treasury (Treasury) for collection using its
Treasury Offset Program (TOP).7

TOP is a program whereby Federal payments are reduced or “offset” to satisfy a
person’s overdue Federal debt, child support obligation, or State income tax debt. The
program encompasses tax refund and administrative offsets (see Appendix B for
additional Background, Scope and Methodology).




4
  The Recovery and Collection of Overpayments Process is a billing and follow-up system. This system is
responsible for all “billable” overpayments issued under the OASDI and Supplemental Security Income
programs.
5
  31 Code of Federal Regulations (C.F.R.) § 900.2(b) defines delinquent debt as a debt that “…has not
been paid by the date specified in the agency’s initial written demand for payment or applicable
agreement or instrument (including a post-delinquency payment agreement), unless other satisfactory
payment arrangements have been made.” Treasury’s Financial Management Service Instructional
Workbook for Preparing the Report on Receivables Due from the Public, August 2000, page 45, states
that delinquency would also occur if, at anytime thereafter, the debtor fails to satisfy the obligations under
the payment arrangement with the creditor agency.
6
  POMS, GN 02201.031 states that SSA considers a OASDI debt to be unrecoverable if (1) the Recovery
and Collection of Overpayment Process billing status is past-due or later, or the debt has been written off
as uncollectible; (2) SSA has not entered into an installment agreement with the debtor, or the debtor has
failed to make any payment for two consecutive months; (3) No appeal/waiver request is pending; and (4)
the debtor is a former beneficiary.
7
  The Debt Collection Improvement Act of 1996, Public Law No. 104-134, Title III, Chapter 10, § 31001;
See 31 U.S.C. §3711(g).

Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)        2
                                                          Results of Review
SSA has used debt collection tools to recover millions in OASDI overpayments from
beneficiaries. However, we found SSA did not refer delinquent OASDI representative
payee overpayment debts to the Treasury’s Financial Management Service (FMS).
Additionally, SSA was not reporting this type of delinquent debt to credit bureaus.
Moreover, the Agency has established overpayment control records for individual
representative payees where payment of more than the correct amount is made after
the beneficiary’s death, as required by law. However, the Agency has not established
overpayment control records for organizational representative payees. Further, the
Agency has not linked these control records to its debt collection system.

SSA EFFORTS ARE RESULTING IN THE COLLECTION OF OASDI
OVERPAYMENTS
SSA efforts have resulted in the collection of substantial amounts of OASDI
overpayments from beneficiaries. During the 1990s, SSA began using Treasury’s Tax
Refund Offset (TRO) program8 to collect delinquent OASDI repayments. In Calendar
Year 1992, SSA used TRO to collect over $50 million from beneficiaries for OASDI
overpayments.

In 1998, SSA began referring debt to Treasury’s FMS for collection by tax refund and
administrative offset. FMS, a bureau within Department of the Treasury, assists Federal
agencies in collecting debt through two components: TOP and the Cross-Servicing
Program. Cross-servicing is the process whereby agencies refer Federal, non-tax debts
more than 180 days delinquent to Treasury’s FMS for collection. During this process, a
variety of collection tools are applied, including referral of debts to TOP and debt
reporting to credit bureaus. SSA stated that it reports only administrative debts9 to
Treasury’s FMS for cross-servicing.

FMS used TOP, which incorporated TRO, to collect debt. Use of TOP provided SSA
additional capabilities to collect debt, including administrative offsets.10 From
October 1999 through June 2003, SSA collected over $175.7 million in OASDI
overpayments from beneficiaries using administrative offsets.
Moreover, SSA began reporting beneficiaries who had delinquent OASDI debts to credit
bureaus as a way of inducing payment. From Calendar Years 1998 to 2001, SSA

8
  The TRO program allows certain Federal agencies to attempt to recover delinquent debts from Federal
income tax refunds.
9
  20 C.F.R. § 422.306(a) states that administrative debts include “…overpayments of pay and allowances
paid to employees, debts for civil monetary penalties imposed under section 1140(b) of the [Social
Security] Act, debts for unpaid fees for reimbursable services performed by SSA (e.g., disclosures of
information), and contractor debts.”
10
   POMS, GN 02201.031, states that administrative offset is the withholding of Federal payments other
than tax refunds. For example, Office of Personnel Management retirement payments, vendor payments,
Federal employee travel payments, some Federal salary payments, and Social Security benefit
payments.

Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)   3
reported over 100,000 delinquent debts to 2 major credit bureaus. Additionally, SSA
reported it planned to begin sending administrative wage garnishment notices in early
calendar year 2005 to collect overpayment debts from the wages of former OASDI
beneficiaries and SSI recipients. Further, the Agency stated that administrative wage
garnishment initiative is estimated to yield $105 million in collections over a 5-year
period, including about $25 million in Supplemental Security Income overpayment.

SSA CAN IMPROVE ITS COLLECTION OF OVERPAYMENTS MADE TO
REPRESENTATIVE PAYEES FOR DECEASED BENEFICIARIES
Generally, the Agency’s OASDI collection efforts have been effective for payments
issued to beneficiaries. However, SSA can improve its collection efforts concerning
those overpayments issued to representative payees for deceased beneficiaries.

Delinquent                    As we reported in The President’s Council on Integrity and
Representative Payee          Efficiency Review of Non-Tax Delinquent Debt,
OASDI Debts Were Not          July 6, 1999, SSA had not referred all delinquent debts to
Referred to Treasury for      Treasury for collection. This condition still existed at the
                              time of our review. Specifically, we found SSA had not
Collection
                              referred delinquent OASDI representative payee
overpayment debts to Treasury’s FMS (see Appendix C). As a result, Treasury’s FMS
could not cross-service these debts for possible collection. From January 1996 through
December 2002, SSA did not use tax refund and administrative offsets to collect this
delinquent debt. Consequently, SSA may have missed an opportunity to collect
approximately $2.3 million.

The Debt Collection Improvement Act (DCIA) of 1996 specifically mandates that Federal
agencies, with certain exemptions, transfer non-tax debt more than 180 days delinquent
to Treasury for collection.11 DCIA requires that Treasury and other disbursing officials
offset Federal payments, a process known as centralized administrative offset, to collect
delinquent debts owed to the United States. Since Treasury’s FMS is responsible for
disbursing payments on behalf of Federal agencies, this process enables Treasury to
match delinquent debts against payments owed. When a match occurs, the payment is
intercepted and the payment is reduced up to the amount of the debt.

We reviewed OASDI payment data for 150 cases for whom payments were issued to
representative payees for deceased beneficiaries. Of the payment records reviewed,
111 (74 percent) of 150 were eligible for referral to Treasury’s FMS for tax refund and
administrative offsets (see Appendix D). SSA did not refer any of the delinquent debt to
Treasury’s FMS.

By not referring delinquent representative payee OASDI debt to Treasury’s FMS, SSA
may have missed opportunities to collect these debts using tax refund and
administrative offsets. SSA uses these offsets to collect delinquent debt from


11
 Public Law No. 104-134, Title III, Chapter 10, § 31001; See 31 U.S.C. §3711(g).

Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)   4
beneficiaries. In FYs 2000 through 2002, SSA collected approximately 7 percent 12 of
the OASDI debts owed by former beneficiaries using these offsets (see Table 1).

                    Table 1: Report on Receivables Due from the Public
                                                Total Debts
     OASDI               Benefit               (Less than 10
     Fiscal           Overpayments           Years Old) Sent       Collections by the        Percentage
      Year              Collected             to Treasury for       Treasury Offset           Collected
                                                   Offset
     2002             $1,036,118,318         $ 726,679,644            $ 43,828,711                 6
     2001              1,121,060,609             659,403,438            49,721,155                 8
     2000              1,369,849,648             543,010,478            41,963,271                 8
     Totals           $3,527,028,575          $1,929,093,560          $135,513,137                 7


As of December 2002, approximately 61,300 representative payees had delinquent
OASDI debt totaling about $77 million. We estimate about 45,400 representative
payees with delinquent debts totaling about $32.5 million could have been referred to
Treasury’s FMS for possible collection through the use of tax refund and administrative
offsets. Applying a 7-percent offset collection rate, we estimate SSA could have
collected approximately $2.3 million using these offsets. However, approximately
$75 million remains outstanding. We will continue to work with the Agency to identify
other methods to collect this debt.

 Credit Bureau                    SSA did not use credit bureau reporting to assist in
 Reporting Was Not                collecting delinquent OASDI debt from representative
 Used for Delinquent              payees. DCIA authorizes13 that most Federal agencies
 Representative Payee             report14 certain non-tax debts to credit bureaus.15
 OASDI Debt
                             SSA must comply with due process procedures16 (60 days)
before reporting a delinquent debt to a credit reporting agency.17 Agency policy
indicates a credit bureau report will be generated for debt owed to SSA that has
reached an unrecoverable status.18 SSA’s automated systems select monthly
delinquent OASDI debts for credit bureau reporting.



12
   Based on SSA’s Financial Report, Report on Receivables Due from the Public, for FYs 2000 through
2002. These data are summarized in Table 1.
13
  FMS’ Guide to the Federal Credit Bureau Program, page 75, October 2001, recommends that Federal
agencies report delinquent consumer debt to four credit bureaus: Equifax, Experian, Trans Union, and
Innovis.
14
   Agencies have two options for credit bureau reporting once they have referred cases to Treasury’s
FMS Debt Management Services for debt collection: they may (1) continue to report the cases to credit
reporting agencies, and FMS will not do so or (2) cease reporting, and FMS will report to credit reporting
agencies on the Federal agencies’ behalf.
15
   31 U.S.C. § 3711(e).
16
   POMS, GN 02201.032.
17
   Provides the debtor with notice of Agency’s intent to report their debt and an opportunity to dispute the
information to be reported.
18
   POMS, GN 02201.032.

Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)           5
Of the payment records reviewed, 124 (83 percent) of 150 records of representative
payees had OASDI debt that reached an unrecoverable status. SSA did not report the
delinquent debts to the credit bureaus, as authorized. As a result, SSA failed to
exercise a debt collection option that may have induced representative payees to pay
money owed to the Agency.

According to the SSA’s management in the offices of Financial Policy and Operations
and Retirement and Survivors Insurance System, the Agency does not refer
representative payee delinquent OASDI debts to Treasury’s FMS or report the debt to
credit bureaus because of limitations in its automated system. Management stated the
Agency’s information system does not capture data on representative payee debt.
However, the system does capture and report information on beneficiaries’ debt.
Treasury’s FMS requires taxpayer identification numbers and names to apply tax refund
and administrative offsets.

The External Collection Operation System captures data concerning beneficiaries’ debt
and reports debt information to external entities. SSA management stated the External
Collection Operation System does not capture and record non-entitled debtors’,19 such
as representative payees, Social Security or taxpayer identification numbers and
names. This same limitation does not allow SSA to identify representative payee
debtors for credit bureau reporting.

The management of SSA’s Office of Financial Policy and Operations stated it had
requested assistance for the development of a debt management, non-entitled debtors
computer program from the Office of Systems. Using existing automated systems, the
computer program is intended to enable recording of non-entitled debtors’ information.
As of September 2003, the computer program had not been created and was no longer
an approved project.

SOME OVERPAYMENT CONTROLS RECORDS EXIST, BUT NOT
LINKED TO SSA’S DEBT COLLECTION SYSTEM
The Social Security Act states that “…[i]f any payment of more than the correct amount
is made to a representative payee on behalf of an individual after the individual’s death,
the representative payee shall be liable for the repayment of the overpayment, and the
Commissioner of Social Security shall establish an overpayment control record under
the social security account number of the representative payee.”20 For overpayments
occurring prior to December 14, 2000, SSA was not required to establish overpayment
control records under representative payees’ Social Security numbers.

During our review of 150 beneficiaries’ payment records showing payments issued to
representatives after death of the beneficiary, we found OASDI representative payee

19
   POMS, SM 00610.772 states that a non-entitled debtor is a person who is not entitled to Social
Security benefits, but has incorrectly received payments either by improper issuance of a check or by
being a Representative Payee for an entitled beneficiary.
20
  Section 204(a)(2) of the Social Security Act, as amended, (42 U.S.C. § 404(a)(2)).

Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)    6
overpayment debts linked to beneficiaries’ Social Security numbers. This overpayment
amount should have been linked to the representative payees’ Social Security account
number. As previously discussed, system limitations prohibited SSA from capturing and
reporting delinquent debt under the representative payees’ Social Security account
number.

On February 12, 2004, we briefed SSA management about the overpayment control
records that should be maintained under the representative payee’s Social Security
account number. SSA management stated that they had established overpayment
control records within its Representative Payee System (RPS) under the individual
representative payee’s Social Security account number. SSA stated that they are
recording remarks on the records of individual representative payees within the RPS to
comply with Section 204(a)(2) of the Social Security Act. Management advised us that
the Agency uses the RPS to identify representative payees who have been overpaid
due to the death of a beneficiary. Specifically, the Agency records remarks21 on the
record of individual representative payees; however, SSA does not record remarks on
organizational22 representative payees.

The Agency issued policy23 reminding adjudicators to be alert to instances where a
representative payee applicant has an existing overpayment due to the receipt of
payments after the death of a beneficiary. Although remarks are recorded on the
overpayment control record of the representative payee, these records are not linked to
SSA’s External Collection Operation to assist in the collection of representative payee
overpayment debt.

We reviewed the RPS for 67 representative payees24 to determine if these payees had
been identified as being overpaid due to the death of a beneficiary. Of the
representative payee records reviewed, 27 were individual representative payees with
remarks recorded on their record, 24 were organizational representative payees with no
remarks recorded, and 14 were either individual or organizational representative payees
with no remarks and no balance due.25

Although not required by Section 204(a)(2) of the Social Security Act, we believe the
Agency should establish an overpayment control record for organizational
representative payees. Congress stated that “[i]ndividuals who willingly accept money
that is not legally theirs by cashing checks intended for deceased recipients have both a

21
   The remarks alert the adjudicators if the representative payee has a prior history of representative
payee related fraud, misuse, as well as, if the representative payee collects Social Security benefits or
has outstanding overpayments on their own account.
22
   Organizational representative payees can include Social Service agencies, institutions, and State or
local government agencies.
23
   AM-03035 – Representative Payees Overpaid Due to Receipt of Payments After the Death of a
Beneficiary Effective February 19, 2003.
24
   We reviewed 150 records within our sample; however, 67 records were of representative payees with a
deceased beneficiary who died after December 14, 2000.
25
   There were two additional representative payee records. One record noted that the individual
representative payee is a beneficiary. The second record was not in the RPS because the collection
activity was terminated.

Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)    7
legal and an ethical responsibility to repay the money.”26 Therefore, Congress
amended the Social Security Act to make all representative payees liable for the
repayment of the overpayment and required SSA to collect this debt.27

By not establishing overpayment control records for all representative payees and not
linking these records (accounts) to its External Collection Operation, SSA was unable to
transfer all delinquent debt information to Treasury’s FMS for possible debt collection.
In addition, the Agency was not able to report all delinquent representative payee debt
to credit bureaus. Such activities would improve the likelihood that delinquent
representative payee debt could be collected.




26
     Foster Care Independence Act of 1999, 106 H. Rpt. 182; Prt 1, p. 31.
27
     Section 204(a)(2) of the Social Security Act, as amended, (42 U.S.C. § 404(a)(2)).

Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)   8
                                                        Conclusions and
                                                       Recommendations
SSA can improve its debt collection efforts for OASDI overpayments made to
representative payees for deceased beneficiaries. Collection of delinquent
representative payee debt may be improved if the Agency refers this debt to Treasury’s
FMS and uses credit bureau reporting. Because the Agency lacked an adequate
system for capturing and reporting representative payee debt information, these
collection tools were not used. The use of overpayment control records will allow the
recording and reporting of OASDI debt of representative payees to Treasury and enable
the use of credit bureau reporting. Without addressing these deficiencies for
representative payees, delinquent OASDI debts made to representative payees will
continue to rise.

We recommend SSA:

1. Identify and refer all eligible delinquent representative payee OASDI overpayment
   debts to Treasury’s FMS for tax refund and administrative offset.

2. Determine whether the representative payee OASDI delinquent overpayment debt
   information is appropriate for credit bureau reporting. If determined to be cost-
   beneficial, implement the process.

3. Improve the RPS to link the overpayment control records of all representative
   payees to its External Collection Operation to assist in debt collection.

4. Determine whether individual representative payees with delinquent OASDI
   overpayment debts should continue to be representative payees.

5. Determine whether organizational representative payees with delinquent OASDI
   overpayment debts should continue or become future representative payees.

6. Determine whether it is cost-beneficial to link the overpayment control record of the
   representative payee to their future Master Beneficiary or Supplemental Security
   Record. If determined to be cost-beneficial, implement the process.

AGENCY COMMENTS
SSA agreed with five of our six recommendations, but agreed in part with our third
recommendation. SSA stated that there is currently a link between the Representative
Payee System and the Master Beneficiary Record, which identifies to the
Representative Payee System any representative payee record where an overpayment
has been established. However, SSA is taking action on all our recommendations. The
text of SSA’s comments is included in Appendix E.


Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)   9
OIG RESPONSE
Although SSA agreed in part with Recommendation 3, the Agency stated, it “…will
address the feasibility of creating an interface between the Representative Payee
System and the Non-Entitled Debtors during the design stage.” SSA’s actions are
responsive to the intent of our recommendation. The Agency also provided “technical”
comments. We agree, in part, with these comments and have made the appropriate
changes as applicable.




Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)   10
                                                Appendices




Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)
                                                                                  Appendix A

Acronyms
 AWG                 Administrative Wage Garnishment

 C.F.R.              Code of Federal Regulations

 DCIA                Debt Collection Improvement Act

 FMS                 Financial Management Service

 IT                  Information Technology

 MBR                 Master Beneficiary Record

 NeD                 Non-Entitled Debtors

 POMS                Program Operations Manual System

 ROAR                Recovery of Overpayments, Accounting and Reporting System

 ROI                 Return On Investment

 SSA                 Social Security Administration

 SSR                 Supplemental Security Income Record

 RPS                 Representative Payee System

 TOP                 Treasury Offset Program

 TRO                 Tax Refund Offset

 Treasury            Department of the Treasury

 U.S.C.              United States Code




Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)
                                                                                      Appendix B

Background, Scope and Methodology
The Social Security Administration (SSA) administers the Old-Age, Survivors and
Disability Insurance (OASDI) program under Title II of the Social Security Act. The
OASDI program provides protection against the loss of earnings due to retirement,
disability, and death. OASDI programs, commonly referred to as “Social Security,”
consist of the Old-Age and Survivors, and Disability Insurance programs. For the fiscal
year ended September 30, 2002, the OASDI program provided total cash benefits of
$452.8 billion to 46.3 million beneficiaries. According to SSA’s 2002 Supplemental
Statistical Analysis, over 10 percent of these beneficiaries had representative payees.

Representative Payees

Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees to receive and manage these beneficiaries’
payments.1 SSA selects representative payees for OASDI beneficiaries when
representative payments would serve the beneficiary’s best interests.

SSA relies on the representative payees to report events to SSA that may affect the
individual’s entitlement.2 These events can include marriage, a change in living
arrangements, death, or incarceration. Overpayment of benefits may occur, due to
representative payee’s failure to notify SSA of events that affect a beneficiary’s
payments. Such an event is the beneficiary’s death.

The recovery process for the collection of overpayments (debt collection process)
becomes more difficult when beneficiaries’ payments are issued to representative
payees. Between Calendar Years 1996 and 2002, the number of representative payees
who received OASDI overpayments for deceased beneficiaries increased approximately
267 percent (from about 6,200 to 16,600). For this grouping, OASDI overpayments
increased approximately 244 percent (from about $7.5 million to more than
$18.3 million). These overpayments are presented in Figure 1.




1
  Sections 205(j) and 1631(a)(2)(A)(ii) of the Social Security Act, as amended (42 U.S.C. §§ 405(j) and
1383(a)(2)(A)(ii)).
2
  SSA Publication No. 05-10076, Social Security: A Guide for Representative Payees, August 2001.


Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)   B-1
Figure 1. OASDI Overpayments Made to Representative Payees for Deceased
Beneficiaries (1996-2002)
Source: SSA’s Master Beneficiary Records and Recovery of Overpayments, Accounting, and Reporting System.


                                                                                               $18.3



                                                                                  $13.9

                                                                      $11.0
                                                        $9.5
                               $8.2          $8.8
                 $7.5




                  1996         1997         1998         1999         2000         2001         2002
                                                    Calendar Year


To accomplish our objective, we:

•   Reviewed public laws,3 regulations,4 the applicable sections of the Social Security
    Act5 and SSA’s Program Operations Manual System (POMS).6

•   Interviewed SSA personnel to obtain an understanding of the policies and
    procedures used for collecting delinquent debts.

•   Obtained from SSA’s Master Beneficiary Records and Recovery of Overpayments,
    Accounting, and Reporting system, a list of 61,333 overpayments totaling
    $77,462,214 made to deceased beneficiaries with representative payees for the
    period January 1996 through December 2002. We randomly selected 150 records
    for review.



3
  Public Laws No. 101-508, Omnibus Budget Reconciliation Act of 1990, No. 103-387, Social Security
Domestic Employment Reform Act of 1994, and No.104-134, The Debt Collection Improvement Act of
1996.
4
  20 Code of Federal Regulations (C.F.R.) §§ 404.520-404.527; 20 C.F.R Part 422, subpart D; 31 C.F.R
Part 285 and 31 C.F.R § 900.2.
5
  Sections 204(a)(2) and 204(f) of the Social Security Act, as amended (42 U.S.C. §§ 404(a)(2) and
404(f).
6
 POMS, sections GN 02200 through GN 02280.


Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)       B-2
•   Obtained computer printouts from SSA’s Master Beneficiary Record, Payment
    History Update System, Inquiry Response System, and Debt Management System.

•   Contacted program service centers to obtain information on the procedures used to
    collect overpayments from deceased beneficiaries with representative payees.

•   Analyzed OASDI-related debt to determine the collection rate of debts owed by
    beneficiaries.

We determined the computer-processed data to be sufficiently reliable for our intended
use. We tested overpayment debt amounts recorded in the Recovery of Overpayments,
Accounting, and Reporting system. We conducted tests to determine the
completeness, accuracy and validity of the data.

The entities reviewed were the Office of Income Security Programs within the Office of
Disability and Income Security Program; Office of Financial Policy and Operations within
the Office of Finance, Assessment and Management; and the Office of Retirement and
Survivors Insurance System within the Office of Systems. We performed our audit from
November 2002 through March 2003 in Baltimore, Maryland. We conducted our audit
in accordance with generally accepted government auditing standards.




Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)   B-3
                                                                                  Appendix C

Prior Office of the Inspector General Review
Our review of The President’s Council on Integrity and Efficiency Review of Non-Tax
Delinquent Debt (A-15-99-52002), July 6, 1999 was part of a Government-wide review
of non-tax delinquent debt. The objective of this review was to determine SSA’s
compliance with the Debt Collection Improvement Act (DCIA) of 1996.1

The audit indicated that SSA was working toward meeting the objectives of the DCIA,
which are to (1) maximize collection of delinquent debts owed to the Government and
(2) reduce losses arising from inadequate debt management activities. Although
progress had been achieved, improvements could be made regarding SSA’s
implementation of the DCIA. Specifically, all delinquent debts were not referred to the
Department of the Treasury’s Financial Management Service for collection, and the
DCIA tool was not incorporated into SSA’s Debt Management Program.

We recommended that SSA:

      1. Improve the transfer of delinquent debts to the Department of the Treasury’s
         Financial Management Service.

      2. Incorporate the application of interest into its debt management program.

SSA stated that progress had been made toward implementing the provisions of the
DCIA. SSA concurred with Recommendation 2 and provided additional comments on
actions the Agency had taken toward implementing the provisions of the DCIA. The
Agency provided comments on the two major debt collection programs. Further, SSA
requested to be designated as a debt collection center on May 30, 1997 for purposes of
collecting its own debt.




1
    Public Law No. 104-134, The Debt Collection Improvement Act of 1996, See 31 U.S.C. § 3701 et seq.


Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)
                                                                                             Appendix D

Sampling Methodology
We obtained a data extract from the Social Security Administration’s (SSA) Master
Beneficiary Record and Recovery of Overpayments, Accounting, and Reporting system,
which included all deceased beneficiaries who had overpayments and representative
payees for the period January 1996 through December 2002. The data extract
consisted of 61,333 overpayment records totaling approximately $77.5 million (see
Figures 2 and 3). We used a random sample generator to select overpayment records
involving deceased beneficiaries for review. From this universe, we selected and
reviewed 150 of the 61,333 overpayments for this period.

                         Figure 2. Cases with OASDI Overpayments to Representative
                                       Payees for Deceased Beneficiaries

                                                                        Unknown Type of
                                Individual                               Representative
                              Representative                                 Payees
                                 Payees                                      3,790
                                 34,473                                       6%
                                  56%

                                                                           Organizational
                                                                          Representative
                                                                             Payees
                                                                             23,070
                                                                              38%




                        Figure 3. Total Dollars of OASDI Overpayments to Representative
                                        Payees for Deceased Beneficiaries

                                                                       Unknown Type of
                                                                        Representative
                                                                            Payees
                                                                          $4,910,347
                                Individual
                                                                             6%
                              Representative
                                 Payees
                               $51,140,697
                                  66%                                       Organizational
                                                                           Representative
                                                                              Payees
                                                                            $21,411,169
                                                                               28%




Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)   D-1
We reviewed each selected record to determine whether SSA had used all of its debt
collection efforts. Of the 150 cases reviewed, we excluded 3 cases for not meeting the
Agency’s collection limit,1 6 cases because the beneficiaries were listed as the
representative payees, 13 cases because they were fewer than 180 days old, and
17 cases because the overpayment balances were paid at the time of our review. The
remaining 111 (74 percent) overpayment records were subject to collection activities;
however, all debt collection tools available were not used.

Of the 61,333 representative payees with delinquent debts totaling approximately
$77.5 million, we estimate about 45,400 delinquent debts totaling at least $32.5 million
could have been referred to Treasury’s FMS for possible collection. Based on the
Agency’s Report on Receivables Due From the Public, SSA collects approximately
7 percent of delinquent debt by utilizing the Treasury Offset Program. Applying this
7 percent offset collection rate, we estimate that SSA could have collected
approximately $2.3 million using these offsets.

                                        Sample Results and Projections

    Population size                                                                                    61,333
    Sample size                                                                                           150
                                     Attribute Projections
    Sampled records where all debt collection tools not used                                              111
    Projection of records where all debt collection tools not used                                     45,386
    Projection lower limit                                                                             41,372
    Projection upper limit                                                                             48,956
                                      Variable Projections
    Sample dollars where all debt collection tools not used                                        $118,524
    Projection of dollars where all debt collection tools not used                               $48,462,757
    Projection lower limit                                                                       $32,546,307
    Projection upper limit                                                                       $64,379,206

Note: All projections were calculated at the 90-percent confidence level.




1
 The Program Operations Manual System, GN 02201.030, excludes cases that have balances less than
$25.00 from offset.




Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)   D-2
                                                                                  Appendix E

Agency Comments




Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)
                                               SOCIAL SECURITY


MEMORANDUM                                                                                  32325-24-998


Date:      May 28, 2004                                                                    Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Collection of Old-Age, Survivors and
           Disability Insurance Overpayments to Representative Payees for Deceased Beneficiaries”
           (A-13-03-13049)--INFORMATION


           We appreciate the OIG's efforts in conducting this review. Our comments on the report content
           and recommendations are attached.

           Please let us know if we can be of further assistance. Questions can be referred to
           Candace Skurnik, Director of the Audit Management and Liaison Staff, at extension 54636.
           Staff questions can be referred to Trudy Williams at extension 50380.

           Attachment:
           SSA Response




           Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)   E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “COLLECTION OF OLD-AGE, SURVIVORS AND DISABILITY
INSURANCE OVERPAYMENTS TO REPRESENTATIVE PAYEES FOR DECEASED
BENEFICIARIES” (A-13-03-13049)

Thank you for the opportunity to comment on the subject draft report. Our response to the report
and to the specific recommendations is provided below.

OIG obtained a data extract from the Social Security Administration (SSA) Master Beneficiary
Record (MBR) and Recovery of Overpayments, Accounting and Reporting (ROAR) system,
which included all deceased beneficiaries who had overpayments and representative payees (Rep
Payees), for the period of January 1996 through December 2002. The data extract consisted of
61,333 overpayments, totaling approximately $77.5 million. OIG randomly sampled 150 of
these records and found 111 cases (74 percent) that were subject to overpayment collection tools,
such as the Treasury Offset Program (TOP) and credit bureau referrals, but the tools were not
utilized. Of the 61,333 cases, OIG estimated that overpayment collection tools could have been
used in 45,400 cases, with an estimated debt of $32.5 million. Utilizing TOP, OIG estimates that
SSA could yield an additional $2.3 million more in debt recoveries, using a 7 percent collection
rate based on SSA’s own financial report, Report on Receivables Due From the Public, for fiscal
years (FY) 2000-2002.

OIG does not make a distinction between organizational Rep Payee debt and individual debt in
this estimate. A prerequisite under SSA’s process for using both TOP and credit bureau referrals
is that the debtor’s own Social Security number must be on the MBR or the Supplemental
Security Income Record (SSR). As such, outstanding debt owed by organizational Rep Payees is
precluded from using these debt collection tools. Therefore, we believe the report should clearly
differentiate the organizational Rep Payee cases from the individual Rep Payees in the projection
of debt recoveries. In addition, individual Rep Payees of deceased debtors are not included in
the aforementioned programs, largely because those Rep Payees have never been entitled to
Social Security benefits and therefore do not have the requisite master records (MBR or SSR)
essential to the use of TOP and credit bureau reporting.

Prior to OIG’s work in this area, SSA recognized the need to create a database to control
programmatic debts of non-beneficiaries. In FY 2003, the Agency completed planning and
analysis of the Non-Entitled Debtors (NeD) Information Technology (IT) Project System,
focusing on overpayments of Rep Payees for payments after death of beneficiaries. This system
could have addressed many of the issues raised in the report, but had to be suspended due to
higher Agency priorities. We believe the draft report does not accurately reflect or provide an
explanation of the dynamics of the Agency’s IT prioritization process. In the case of NeD, the
projected return on investment (ROI) is slightly less than $2 million per year. Other projects,
however, such as administrative wage garnishment (AWG), are expected to yield a much greater
ROI (an estimated $105 million over 5 years). SSA, whenever possible, directs its available
resources towards the development of these new, higher yield projects, such as mandatory cross
program recovery, credit bureau reporting for Title XVI overpayments, and administrative offset
for Title XVI program overpayments. To date, mandatory cross program recovery has collected


Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)   E-2
about $115 million, while credit bureau reporting and administrative offset for Title XVI debts
have contributed to the collection of $52.1 million in voluntary repayments made by those
people who want to avoid other collection tools.

However, recently enacted legislation, Public Law (P.L.) 108-203, the Social Security Protection
Act of 2004, obligated SSA to resurrect activity on the NeD project since it will set up the
framework to comply with Sections 01, 105, 111, 201, 204, 207 and 303 of the Social Security
Act. Most notably, NeD will establish a Liability Index File to connect a Rep Payee or other
non-entitled debtor to the Claim Account Number where the debt occurred. In addition, P.L.
108-203 redefines misused funds issued to nongovernmental Rep Payees as overpayments and
expands SSA’s authority to use all available debt collection tools to pursue collection of these
debts. The NeD project will be implemented in phases. The first phase will address Title II
overpayments to Rep Payees of deceased beneficiaries and is currently scheduled for release in
September 2005. Release 1 will address the most critical issue raised in this report, which is,
identifying and referring eligible non-entitled debtors for Tax Refund Offset. The second release
will include Title XVI overpayments to Rep Payees of deceased beneficiaries. The
recommendations in this report should be addressed in the first two phases of NeD for
prospective death cases.

Recommendation 1

SSA should identify and refer all eligible delinquent Rep Payees Old-Age, Survivors and
Disability Insurance (OASDI) overpayment debts to Treasury’s Financial Management Service
(FMS) for tax refund and administrative offset.

Comment

We agree. The NeD project will identify, prospectively, Rep Payee OASDI debts and debtors by
modifying the ROAR master file to include and process liable party information by means of
building a liability file. This data base will enable eligible delinquent Rep Payee OASDI debts
and debtors to be referred for TOP and any other debt collection tool that is available.

Recommendation 2

SSA should determine whether the Rep Payee OASDI delinquent overpayment debt information
is appropriate for credit bureau reporting. If determined to be cost-beneficial, implement the
process.

Comment

We agree. The initial phase of NeD will use all debt collection tools that are available to provide
a link between TOP and the credit bureaus. To avoid any potential fallout, the end-users will
need to determine the universe for the additional phases of NeD.




Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)   E-3
Recommendation 3

SSA should improve the Representative Payee System (RPS) to link the overpayment control
records of all Rep Payees to its External Collection Operation to assist in debt collection.

Comment

We agree in part. There is currently a link between the RPS and the MBR updated (DUDEX)
which identifies to the RPS any Rep Payee record where an overpayment has been established.
We will address the feasibility of creating an interface between RPS and NeD during the design
stage.

Recommendation 4

SSA should determine whether individual Rep Payees with delinquent OASDI overpayment
debts should continue to be Rep Payees.

Comment

We agree. Delinquent OASDI overpayment debt should be a factor in deciding whether
someone should be allowed to continue as a Rep Payee. We will work to identify cases where
this condition exists, and once identified, we will review the continued suitability of these Rep
Payees. Additional policy guidance will need to be written for cases where the suitability of a
current Rep Payee is in question due to an outstanding overpayment. We already consider
outstanding debt when selecting a Rep Payee.

Recommendation 5

SSA should determine whether organizational Rep Payees with delinquent OASDI overpayment
debts should continue or become future Rep Payees.

Comment

We agree. This issue will be looked at more closely, as this could be an indication of possible
problems if there are a number of overpayments outstanding for a particular organizational Rep
payee.

An alert (as described in AM-03035) is generated by the RPS system for organizational Rep
Payees who are overpaid due to the death of a beneficiary. The overpayment issue can be
addressed during expanded monitoring reviews; however, each must be evaluated on a case-by-
case basis. Our experience has been that organizational Rep Payees want to do what is right, in
accordance with SSA's laws and regulations, and upon personal contact, they will return
overpaid funds. The Social Security Protection Act of 2004 specifically requires identification,
licensing and bonding of Rep Payees with more than 15 beneficiaries and fee-for-service
organizational Rep Payees, so that those with delinquent debts can be identified and prevented
from acquiring additional beneficiaries.



Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)   E-4
Recommendation 6

SSA should determine whether it is cost-beneficial to link the overpayment control record of the
Rep Payee to their future MBR or SSR. If determined to be cost-beneficial, implement the
process.

Comment

We agree. The Agency has already determined that linking debts incurred as a Rep Payee to the
Rep Payee’s own benefit record would be beneficial. This recognized deficiency was the
impetus for NeD. Also, P.L. 108-203 provides the necessary legislation to consider certain
misused funds as overpayments, thus allowing the Agency the full range of debt collection
processes and tools for this problematic debt.



[In addition to the items listed above, SSA also provided other and technical comments
which have been addressed, where appropriate, in this report.]




Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)   E-5
                                                                                  Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
    Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

    Brian Karpe, Audit Manager, General Management (410) 966-1029

Acknowledgments
In addition to those named above:

    Tracey Edwards, Senior Auditor

    Joe Borowy, Auditor

    Cheryl Robinson, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-03-13049.




Collection of OASDI Overpayments to Representative Payees for Deceased Beneficiaries (A-13-03-13049)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
